Ti

Q@OCKLE

Le g al Brie fg E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-403

ALABAMA-COUSHATTA TRIBE OF TEXAS,
Petitioner,
v.
STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
NATIONAL CONGRESS OF AMERICAN INDIANS FUND, NATIONAL INDIAN GAMING
ASSOCIATION, AND USET SOVEREIGNTY PROTECTION FUND IN SUPPORT OF
PETITION FOR CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5980 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : LS Qudraw- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant

 

 

38774
